No. 20-1364

In the Supreme Court of the United States
__________________
BOFI HOLDING, INC., ET AL.,
Petitioners,
v.
HOUSTON MUNICIPAL EMPLOYEES PENSION SYSTEM
Respondent.
__________________
On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Ninth Circuit

__________________
BRIEF OF AMICI CURIAE SECURITIES AND
FINANCIAL MARKETS ASSOCIATION AND
CHAMBER OF COMMERCE OF THE UNITED
STATES OF AMERICA IN SUPPORT OF
PETITIONERS

__________________
JONATHAN K. YOUNGWOOD
Counsel of Record
CRAIG S. WALDMAN
JOSHUA POLSTER
DANIEL OWSLEY
SIMPSON THACHER &
BARTLETT LLP
425 Lexington Avenue
New York, New York 10017
(212) 455-2000
JYoungwood@stblaw.com

IRA D. HAMMERMAN
KEVIN CARROLL
SECURITIES INDUSTRY AND
FINANCIAL MARKETS
ASSOCIATION
1101 New York Ave., N.W.
Washington, D.C. 20005

DARYL JOSEFFER
JENNIFER B. DICKEY
U.S. CHAMBER LITIGATION
CENTER
1615 H Street, NW
Washington, DC 20062-2000
Counsel for Amici Curiae

April 29, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
INTRODUCTION
AND
SUMMARY OF
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I. THE NINTH CIRCUIT'S DECISION IS
SQUARELY AT ODDS WITH ELEVENTH
CIRCUIT PRECEDENT, FURTHER
DEEPENING A CIRCUIT SPLIT . . . . . . . . . . . . 4
A. THE CIRCUITS ARE SPLIT ON WHETHER
UNCORROBORATED ALLEGATIONS CAN
SERVE AS CORRECTIVE DISCLOSURES
..................................... 4
B. IN JOINING THE SIXTH CIRCUIT, THE
NINTH CIRCUIT JOINED THE WRONG
SIDE OF THE SPLIT WITH THE
ELEVENTH CIRCUIT . . . . . . . . . . . . . . . . . . 7
II. THE NINTH CIRCUIT'S DECISION COULD
IMPOSE SIGNIFICANT COSTS ON PUBLIC
COMPANIES IN THE UNITED STATES . . . . 12
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

ii
TABLE OF AUTHORITIES
CASES
Castano v. Am. Tobacco Co.,
84 F.3d 734 (5th Cir. 1996). . . . . . . . . . . . . . . . . 14
Dura Pharmaceuticals, Inc. v. Broudo,
544 U.S. 336 (2005). . . . . . . . . . . . . . . . . . . passim
Epic Systems Corp. v. Lewis,
138 S. Ct. 1612 (2018). . . . . . . . . . . . . . . . . . . . . 14
Hevesi v. Citigroup Inc.,
366 F.3d 70 (2d Cir. 2004) . . . . . . . . . . . . . . . . . 14
Houston Municipal Employees Pension System v.
BofI Holding, Inc. (In re BofI Holding, Inc.
Securities Litigation), No. 18-55415,
977 F.3d 781 (9th Cir. 2020). . . . . . . . . . . . . . . . . 2
Loos v. Immersion Corp.,
762 F.3d 880 (9th Cir. 2014). . . . . . . . . . . . . . . . . 5
Meyer v. Greene,
710 F.3d 1189 (11th Cir. 2013). . . . . . . . . . 4, 5, 11
Norfolk Cty. Ret. Sys. v. Cmty. Health Sys., Inc.,
877 F.3d 687 (6th Cir. 2017). . . . . . . . . . . . . . . 6, 7
Sapssov v. Health Mgmt. Assocs., Inc.,
608 F. App'x 855 (11th Cir. 2015) . . . . . . . . . . . . 5
Shady Grove Orthopedic Associates, P.A. v. Allstate
Ins. Co., 559 U.S. 393 (2010)
(Ginsburg, J., dissenting) . . . . . . . . . . . . . . . . . . 14

iii
Stoneridge Inv. Partners, LLC v. Scientific-Atlanta,
Inc., 552 U.S. 148 (2008) . . . . . . . . . . . . . . . . . . 15
OTHER AUTHORITIES
Cornerstone Research, Securities Class Action
Settlements 2019 Review and Analysis, 14
(2020), https://www.cornerstone.com/
Publications/Reports/Securities-Class-ActionSettlements-2019-Review-and-Analysis . . . . . . 15
Cornerstone Research, Securities Class Action
Filings 2020 Year in Review, 38 (2021),
https://www.cornerstone.com/Publications/
Reports/Securities-Class-Action-Filings-2020Year-in-Review . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Margaret Dale and Mark Harris, Establishing Loss
Causation in Securities Fraud Class Actions,
Law.com (Dec. 14, 2020), https://www.law.com/
newyorklawjournal/2020/12/14/establishing-losscausation-in-securities-fraud-class-actions/. . . . 16
C. Metzger & B. Mukherjee, Challenging Times:
The Hardening D&O Insurance Market, Harvard
Law School Forum on Corporate Governance
(Jan. 29, 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . 16
U.S. Chamber Institute for Legal Reform,
Containing the Contagion: Proposals to Reform
the Broken Securities Class Action System, 2
(Feb. 2019). . . . . . . . . . . . . . . . . . . . . . . . 13-14, 15
U.S. Chamber Institute for Legal Reform, Risk and
Reward: The Securities-Fraud Class Action
Lottery 4 & n. 16 (Feb. 2019) . . . . . . . . . . . . . . . 15

iv
M. Wusterhorn & G. Zuckerman, Fewer Listed
Companies: Is that Good or Bad for Stock
Markets?, Wall St. J. (Jan. 4, 2018) . . . . . . . . . 16

1
INTEREST OF AMICI CURIAE1
The Securities Industry and Financial Markets
Association (“SIFMA”) is a securities industry trade
association representing the interests of hundreds of
securities firms, banks, and asset managers. Its
mission is to support a strong financial industry, while
promoting investor opportunity, capital formation, job
creation, economic growth, and trust and confidence in
the financial markets. SIFMA is the United States
regional member of the Global Financial Markets
Association.
The Chamber of Commerce of the United States of
America (the “Chamber”) is the Nation’s largest
business federation. It directly represents 300,000
members and indirectly represents the interests of
approximately 3 million businesses, trade, and
professional organizations of every size, in every sector,
and from every region of the United States. An
important function of the Chamber is to represent the
interests of its members in matters before Congress,
the Executive Branch, and the courts. To that end, the
Chamber regularly files amicus curiae briefs in cases
that raise issues of concern to the Nation’s business
community. Many of the Chamber’s members are

1

Pursuant to Rule 37.6, Counsel of amici represent that they
authored this brief in its entirety and that none of the parties nor
their counsel, nor any other person or entity other than amici,
their members or their counsel have made a monetary contribution
intended to fund the preparation of submission of this brief.
Counsel of record provided timely notice of the intent to file this
amici brief pursuant to Rule 37.2 and both parties have consented
to the filing.

2
companies subject to the U.S. securities laws who
would be adversely affected if the decision below is not
corrected.
INTRODUCTION AND SUMMARY OF
ARGUMENT
The Ninth Circuit in Houston Municipal Employees
Pension System v. BofI Holding, Inc. (In re BofI
Holding, Inc. Securities Litigation), No. 18-55415, 977
F.3d 781 (9th Cir. 2020) further cements a circuit split
as to whether uncorroborated allegations are a
“corrective disclosure” sufficient to reveal the “truth”
and satisfy the requirements of loss causation under
Dura Pharmaceuticals, Inc. v. Broudo, 544 U.S. 336
(2005). The Ninth Circuit held that the filing of a
wrongful termination lawsuit by a former employee of
the Defendant, containing uncorroborated accusations
of financial wrongdoing, could constitute a corrective
disclosure that exposed the “truth” about the
Defendant’s business to the market. Amici strongly
support the contrary rule in the Eleventh Circuit that
allegations of wrongdoing against an issuer cannot,
without any subsequent corroboration of wrongdoing,
establish loss causation. The Supreme Court should
accept this case to resolve the circuit split.
In splitting with the Eleventh Circuit, the Ninth
Circuit ruled that the relevant question for pleading
loss causation is whether the complaint indicates that
shareholders reasonably perceived the allegations as
true by acting on the information. In other words, did
the stock price drop? The Ninth Circuit thus confused
the element of economic “loss” with that of “loss
causation.” That an allegation caused the stock price to

3
drop does not mean that disclosure of the truth caused
the stock price to drop. Simply the fact that an
allegation is made against a company often causes a
stock price to drop. As emphasized by Judge Lee in
dissent, a stock price drop following allegations of
misconduct does not indicate truth has been revealed
but rather that the market perceives “an added risk of
future corrective action.”
By permitting securities fraud cases to move
forward without any actual truth emerging, the Ninth
Circuit incentivizes baseless litigation where there is
no real indication that fraud has occurred. Plaintiffs’
attorneys are even further incentivized to file securities
fraud suits after every allegation about a company that
is followed by a stock drop. Even though defendants
may ultimately prevail in dismissing such suits at
summary judgment (or trial), companies face hydraulic
pressure to settle securities class actions. Companies,
and shareholders, may therefore pay significant
settlements to resolve securities fraud suits premised
on underlying allegations of wrongdoing that are never
substantiated or even shown to be related to false or
misleading statements.

4
ARGUMENT
I. THE NINTH CIRCUIT’S DECISION IS
SQUARELY AT ODDS WITH ELEVENTH
CIRCUIT PRECEDENT, FURTHER
DEEPENING A CIRCUIT SPLIT
A. THE CIRCUITS ARE SPLIT ON WHETHER
UNCORROBORATED ALLEGATIONS CAN
SERVE AS CORRECTIVE DISCLOSURES
Supreme Court review of the decision below is
critical because the circuits are divided on what
suffices to show a corrective disclosure for purposes of
pleading loss causation in securities fraud suits.
The Eleventh Circuit has recognized that mere
allegations without subsequent corroboration cannot
serve as a corrective disclosure. In Meyer v. Greene, 710
F.3d 1189, 1201 n. 13 (11th Cir. 2013), the Eleventh
Circuit held that the announcement of an SEC
investigation did not constitute a corrective disclosure
because, “standing alone and without any subsequent
disclosure of actual wrongdoing,” the fact of an
investigation does not reveal to the market the “truth.”
The Court recognized that the disclosure of a
government investigation could qualify as a partial
corrective disclosure if followed by another disclosure
corroborating the alleged wrongdoing, but standing
alone, an investigation concerning potential
wrongdoing is insufficient. Id. As stated by the
Eleventh Circuit: “[i]t is, after all, impossible to say
that an SEC investigation was the moment when the

5
‘relevant truth beg[an] to leak out’ if the truth never
actually leaked out.” Id. (citing Dura, 544 U.S. at 342.)
The Eleventh Circuit reinforced this rule in Sapssov
v. Health Mgmt. Assocs., Inc., 608 F. App’x 855, 863
(11th Cir. 2015). There, plaintiffs alleged that an
analyst report that summarized a whistleblower suit by
a former employee of a company, coupled with the
announcement of subpoenas from a regulator, revealed
to the market that the company had been engaged in
fraud. Id. The Eleventh Circuit affirmed the dismissal
of the suit, holding that whether “[t]aken
independently or combined,” the subpoenas,
whistleblower suit, and the analyst report do not
suffice as corrective disclosures. Id at 864. The Court
emphasized that “[a]n adverse market reaction . . . does
not establish the disclosure of an investigation
constitutes a corrective disclosure; further allegations
are required to establish that previous statements were
‘false or fraudulent.’” Id. at 863 (citation omitted).
Finally, the Court held that “[t]he market may react
negatively to the disclosure of an investigation, because
it ‘can be seen to portend an added risk of future
corrective action.’” Id. (quoting Meyer, 710 F.3d 1189 at
1201.)
In the decision below, the Ninth Circuit reached a
wholly contrary conclusion. Although it had previously
agreed with the Eleventh Circuit that the mere
announcement of an internal investigation, standing
alone, could “not reveal to the market any facts that
could call into question the veracity of the company’s
prior statements,” App. 18a (discussing Loos v.
Immersion Corp., 762 F.3d 880 (9th Cir. 2014), it held

6
that mere allegations in a lawsuit could do so. App.
17a. In particular, the court considered allegations
made in a wrongful termination lawsuit filed against
BofI Holding, Inc. (“BofI”) by a former employee
(Erhart) alleging financial wrongdoing at the company.
See App. 14a-17a. According to the Ninth Circuit, “the
relevant question for loss causation purposes is
whether the market reasonably perceived [the]
allegations as true and acted upon them accordingly.”
App. 16a. The Ninth Circuit elaborated that “[t]he fact
that Bofl’s stock price plunged by more than 30% on
extremely high trading volume immediately after the
market learned of Erhart’s allegations bolsters the
inference that the market regarded his allegations as
credible” and that “[a] price drop of that magnitude
would not be expected in response to whistleblower
allegations perceived as unworthy of belief.” App. 17a.
This variance from the conclusion reached by the
Eleventh Circuit is significant. The decision below
provides that an adverse market reaction and market
perception—regardless of evidence—is a sufficient basis
to treat mere allegations as a corrective disclosure of
the truth. No further corroborating disclosures are
necessary to establish a corrective disclosure. And that
ruling significantly undermines the force of the Ninth
Circuit’s ruling in Loos that a mere investigation
cannot establish loss causation, as such a rule can be
evaded merely by announcing the allegations that an
investigation might consider.
The Ninth Circuit joined the Sixth Circuit in this
view. The Sixth Circuit in Norfolk Cty. Ret. Sys. v.
Cmty. Health Sys. held that mere allegations can serve

7
as corrective disclosures revealing the truth. Norfolk
Cty. Ret. Sys. v. Cmty. Health Sys., Inc., 877 F.3d 687,
696 (6th Cir. 2017). In that decision, the Sixth Circuit
said that a court “must evaluate each putative
disclosure individually (and in the context of any other
disclosures) to determine whether the market could
have perceived it as true.” Id. (emphasis added). By
focusing on market perception, the Sixth Circuit
departed from the Eleventh Circuit’s reasoning that
adverse market reactions do not by themselves
establish corrective disclosures.
By joining the Sixth Circuit in holding that market
perception of a disclosure is what counts to render that
disclosure as “true” for purposes of determining loss
causation in securities litigation, the Ninth Circuit has
deepened an existing Circuit Split and made the need
for this Court’s clarity all the more critical.
B. IN JOINING THE SIXTH CIRCUIT, THE
NINTH CIRCUIT JOINED THE WRONG
SIDE OF THE SPLIT WITH THE
ELEVENTH CIRCUIT
In holding that allegations alone can serve as a
corrective disclosure, the Ninth Circuit erred in
multiple respects. First, the court held that the
relevant question is whether plaintiff has alleged facts
showing “the market reasonably perceived [the]
allegations as true.” App. 16a, 18a. (“If the market
treats allegations in a lawsuit as sufficiently credible to
be acted upon as truth. . . then the allegations can
serve as a corrective disclosure.”). But as this Court
explained in Dura, the relevant question for loss
causation is whether there was a loss after “the truth

8
became known” (not whether the market “perceived”
that a truth became known). See Dura, 544 U.S. at 342345, 347 (emphasis added). Allowing a plaintiff to plead
loss causation based on showing the market treated
allegations as “sufficiently credible to be acted upon”
allows the loss causation element to be satisfied by a
pleading of a loss. That is, a plaintiff would need to
plead only that the stock price dropped following
allegations, and therefore the market perceived them
as truthful. Allowing such a claim to proceed confuses
the element of economic “loss” with that of “loss
causation.” See id. at 342.
What is more, a decline in stock price amounting to
such a “loss” may be only temporally related to an
allegation of wrongdoing. The fact that a stock price
drop occurred at or near the same time as a disclosure
is not a proper basis to assume the price drop was a
result of the market perceiving the alleged disclosure
as “true.” Even where the price drop did relate in whole
or part to the disclosure, most investors value security
and abhor unpredictability and thus may have decided
it was commercially responsible to sell stock quickly in
order to avoid any impending volatility, regardless of
their perception of the truth or falsity of the disclosure.
The Ninth Circuit compounded its error by relying
on the magnitude of the drop following Erhart’s
allegations to find that allegations alone could satisfy
loss causation. See App. 17a (“The fact that BofI’s stock
price plunged by more than 30% on extremely high
trading volume immediately after the market learned
of Erhart’s allegations bolsters the inference that the
market regarded his allegations as credible.”). As

9
explained by Judge Lee in dissent, a drop—even a large
drop—in a stock price does not indicate a
misrepresentation has been revealed, but rather
“market speculation about whether fraud has
occurred.” App. 34a. Indeed, that BofI’s shares dropped
by 30% after Erhart accused BofI of wrongdoing “does
not necessarily mean [that] Erhart’s allegations
revealed the ‘truth’ and acted as a corrective
disclosure” but rather “is better construed as a
disclosure of ‘an added risk of future corrective action.’”
App. 33a-34a.
Further, the magnitude of a drop may also be
influenced by the seriousness of the accusations.
Serious accusations that the market does not regard as
particularly credible could cause a similar price drop as
accusations of less serious wrongdoing that the market
regards as very credible. The magnitude of a stock
price drop following public allegations about a company
should not be used as a proxy for whether the
allegations have actually revealed truth.
The rule adopted by the Sixth and Ninth Circuits
creates an unworkable standard. With only a bare
complaint as reference, the decision below suggests a
court must sort and weigh myriad factors in order to
determine whether a particular percentage drop is
sufficient to support an inference that the
whistleblower’s allegations revealed the truth, such as
the nature of a purported whistleblower’s allegations,
the severity of the alleged wrongdoing, and other
unrelated market factors. Courts could be forced to
decide whether a 20% drop, or a 10% drop, or a 15%
drop, is sufficient to “bolster” the inference that the

10
truth has been revealed. The Sixth and Ninth Circuits
have not given clarity on where this line may lie.
The rule adopted in the Sixth and Ninth Circuits is
additionally flawed because, if uncorroborated
allegations in lawsuits are deemed to reveal truth,
where is the line drawn on what form of
uncorroborated information reveals truth? While the
Ninth Circuit found in this case that stock price drops
following anonymous blog posts authored by shortsellers were insufficient for revelation of truth, the
court explicitly left open the possibility that blog posts
(or other bare allegations) could qualify as corrective
disclosures. Thus, it is unclear where the line is drawn.
What if the blog posts were not anonymized but
authored by a well-known investor? Would a Tweet
with allegations be sufficient to show truth was
revealed if followed by a significant stock price drop?
This issue was rightfully noted by Judge Lee, who
stated that permitting securities fraud suits to move
forward without any additional corroboration risks
subjecting public companies to significant liability over
“wisps of innuendo and speculation.” App. 30a.
Nor have the Sixth and Ninth Circuits addressed
how litigation over a whistleblower’s allegations should
affect an ongoing securities case in which those
allegations have been used to establish “loss causation”
or vice versa. What effect if any would the subsequent
dismissal of the whistleblower suit have on the
securities suit? Relatedly, what effect if any should
treating a whistleblower’s allegations as effectively
“true” for purposes of a securities suit have on the
whistleblower suit in a different court?

11
None of the answers to these questions is clear from
the Sixth and Ninth Circuit decisions. What is clear is
that the case-by-case standard set out below, should it
stand, will generate unpredictable and inconsistent
decisions, unlike the bright-line approach taken by the
Eleventh Circuit.
Under the Eleventh Circuit approach, an allegation
of wrongdoing must be supported by some
corroboration before being treated as the disclosure of
“the truth” under Dura. In Meyer, the defendant
company’s stock price fell 7% on the date an informal
SEC investigation was announced and 9% on the date
a related “private order of investigation” was disclosed
by the company, but afterwards “the SEC never issued
any finding of wrongdoing or in any way indicated that
the Company had violated the federal securities laws.”
Meyer, 710 F.3d at 1201. Thus, the Eleventh Circuit
ruled that the announcement of an investigation,
without more, revealed only the investigation, not that
the company’s previous statements were false or
fraudulent. Id. This outcome would likely have differed
had the announcements been followed by government
fines or enforcement actions, as such actions would
have corroborated the allegation of wrongdoing that
one might read into the announcement of an SEC
investigation. Similarly, this case would be different
had BofI released a revenue restatement or had there
been some disclosure or information alleged by
plaintiffs to corroborate the mere allegations in the
Erhart complaint. As noted by Judge Lee, “a surprise
restatement of earnings” or “an unexplained
announcement about an increase in reserves” could

12
confirm allegations and act as a corrective disclosure.
App. 35a. There is none here.
The Eleventh Circuit rule reflects an appropriate
balance of the interests underlying the securities laws.
As the Supreme Court made clear in Dura, the purpose
of the securities laws is “not to provide investors with
broad insurance against market losses, but to protect
them against those economic losses that
misrepresentations actually cause.” Dura, 544 U.S. at
345. The Eleventh Circuit’s rule serves this purpose
well.
II. THE NINTH CIRCUIT’S DECISION COULD
IMPOSE SIGNIFICANT COSTS ON PUBLIC
COMPANIES IN THE UNITED STATES
The Ninth Circuit’s ruling that securities fraud
cases may move forward based on a “corrective
disclosure” that may not actually be true further
incentivizes the filing of fraud complaints that have no
basis in fact. Every allegation or rumor about a
company that precedes a drop in share price will be
even more likely to precipitate the filing of a securities
fraud lawsuit. Lawsuits by former employees or
business counterparties accusing a company of
misconduct will, coupled with a stock drop, be similarly
likely to lead to a securities fraud suit. This dynamic
risks “transform[ing] a private securities action into a
partial downside insurance policy” for marketplace
loss. Dura, 544 U.S. at 347-348.
Here, for instance, Plaintiffs challenged broad and
generic statements in BofI public filings. See, e.g., App.
6a. (“We have made significant investments in our

13
overall compliance infrastructure . . . .”); (“We continue
to have an unwavering focus on credit quality of the
bank . . . .”). Nearly any allegation or investigation
regarding financial and accounting matters could be
alleged to “reveal” the earlier statements were
fraudulent and therefore, under the Ninth Circuit’s
precedent, serve as fodder for a securities fraud suit.
Critically, securities lawsuits will increasingly be
filed without any actual corrective disclosure revealing
the “truth” to the market—such as a financial
restatement by the company. As emphasized by Judge
Lee, “[w]e may end up with a scenario in which [the
whistleblower] loses his [] trial, and the government
agencies end their investigations without any action
and yet Bofl may end up settling a securities fraud case
for millions of dollars to avoid litigation costs.” App.
32a.
The Ninth Circuit’s holding will thus further
increase the already rising number of securities
lawsuits. Within the last decade, the number of class
action filings has dramatically increased from 164 in
2009 and 174 in 2010 to 427 in 2019 and 334 in 2020.
Cornerstone Research, Securities Class Action Filings
2020 Year in Review, 38 (2021), https://www.
cornerstone.com/Publications/Reports/Securities-ClassAction-Filings-2020-Year-in-Review. Overall, these
recent securities class action cases are “larger than
before and therefore threaten much higher litigation
and settlement costs than cases filed in prior
years—nearly three times larger than the average for
1997 to 2017.” U.S. Chamber Institute for Legal
Reform, Containing the Contagion: Proposals to Reform

14
the Broken Securities Class Action System, 2 (Feb.
2019). Such claims also are being brought by an
extremely small subset of the plaintiffs’ bar with
individual plaintiffs increasingly appointed as lead
plaintiffs instead of institutional investors, indicating
an increase in the sort of lawyer-driven, meritless
litigation Congress long sought to eliminate. Id. at 14.
And this rule promises many more such filings.
The expansion of securities class actions is
particularly pronounced with respect to “event-driven”
litigation like this case. When some circumstance or
bad press causes a corporation’s stock price to fall,
plaintiffs immediately bring securities litigation
alleging that the company should have previously
disclosed the risks or misconduct that ultimately
precipitated this price drop. Id. at 9.
While a company faced with such securities fraud
suits can win on the merits (such as at summary
judgment or trial), securities fraud putative class
actions generally do not proceed that far. Particularly
once a class is certified, defendants often face
“hydraulic pressure” to settle and “avoid[] the risk,
however small, of potentially ruinous liability.” Hevesi
v. Citigroup Inc., 366 F.3d 70, 80 (2d Cir. 2004)
(citation omitted); Castano v. Am. Tobacco Co., 84 F.3d
734, 746 (5th Cir. 1996) (“The risk of facing an all or
nothing verdict presents too high a risk, even when the
probability of an adverse judgment is low.”). It is “well
known that [class actions] can unfairly ‘plac[e] pressure
on the defendant to settle even unmeritorious claims.’”
Epic Systems Corp. v. Lewis, 138 S. Ct. 1612, 1632
(2018) (citing Shady Grove Orthopedic Associates, P.A.

15
v. Allstate Ins. Co., 559 U.S. 393, 445, n. 3 (2010)
(Ginsburg, J., dissenting)). See also Stoneridge Inv.
Partners, LLC v. Scientific-Atlanta, Inc., 552 U.S. 148,
149 (2008) (reviewing “practical consequences” and
declining to interpret law in a way that would “allow
plaintiffs with weak claims to extort settlements from
innocent companies.”). In recent years, the median
securities class action settlement amount after ruling
on a motion to dismiss (and before class certification)
was $5.4 million. Cornerstone Research, Securities
Class Action Settlements 2019 Review and Analysis, 14
(2020), https://www.cornerstone.com/Publications/
Reports/Securities-Class-Action-Settlements-2019Review-and-Analysis.
The benefits of event-driven securities litigation, if
any, are slight. The primary result of class-securities
settlements is to transfer wealth from one group of
innocent shareholders to another, after subtracting a
sizable share for attorneys’ fees. U.S. Chamber
Institute for Legal Reform, Risk and Reward: The
Securities-Fraud Class Action Lottery 4 & n. 16 (Feb.
2019).
Yet the costs on American businesses, investors,
and employees are significant. One recent study
showed that, due in part to the rise in event-driven
litigation, as many as one in eleven S&P 500 companies
will be sued annually in a securities suit (excluding
M&A cases). U.S. Chamber Institute for Legal Reform,
Containing the Contagion 11. The costs of such
litigation are spread to all U.S. public companies,
which must pay more for insurance and to access
capital, all while competing with overseas counterparts

16
not subject to the same constant litigation threat. See
C. Metzger & B. Mukherjee, Challenging Times: The
Hardening D&O Insurance Market, Harvard Law
School Forum on Corporate Governance (Jan. 29,
2020). Many companies may instead choose to remain
private, depriving the public of investment
opportunities previously open to them. See M.
Wusterhorn & G. Zuckerman, Fewer Listed Companies:
Is that Good or Bad for Stock Markets?, Wall St. J.
(Jan. 4, 2018) (noting that the number of public
companies dropped by more than half since 1996).
Moreover, beyond the prospect of increased
securities litigation, the Ninth Circuit’s ruling
incentivizes mischief in the market. Because the court
held that uncorroborated allegations can be sufficient
to support loss causation, short-sellers, competitors, or
others looking to hurt a company will be incentivized to
publish unsubstantiated or speculative allegations of
wrongdoing in order to draw a securities fraud suit.
Short seller “research reports” are prepared precisely
with the intent of triggering stock drops and potentially
subsequent litigation, to the financial gain of the
author. See Margaret Dale and Mark Harris,
Establishing Loss Causation in Securities Fraud Class
Actions, Law.com (Dec. 14, 2020), https://www.law.com/
newyorklawjournal/2020/12/14/establishing-losscausation-in-securities-fraud-class-actions/. With the
Ninth Circuit’s ruling, the force and detrimental effects
of unsubstantiated allegations are multiplied, as a
company will have to respond to the allegations
themselves and also the almost-inevitable securities
fraud follow-on suit. In the end, shareholders will
suffer.

17
This Court should grant BofI’s petition for certiorari
and make clear that unsubstantiated allegations alone
are insufficient for pleading that “the truth became
known” and satisfying the loss causation requirement
for a securities fraud claim. Dura, 544 U.S. at 342-345,
347.
CONCLUSION
WHEREFORE, this Court should grant the
Petitioners’ request for review.
Respectfully submitted,
JONATHAN K. YOUNGWOOD
Counsel of Record
CRAIG S. WALDMAN
JOSHUA POLSTER
DANIEL OWSLEY
SIMPSON THACHER &
BARTLETT LLP
425 Lexington Avenue
New York, New York 10017
(212) 455-2000
JYoungwood@stblaw.com

Counsel for Amici Curiae
Dated: April 29, 2021

IRA D. HAMMERMAN
KEVIN CARROLL
SECURITIES INDUSTRY AND
FINANCIAL MARKETS
ASSOCIATION
1101 New York Ave., N.W.
Washington, D.C. 20005
DARYL JOSEFFER
JENNIFER B. DICKEY
U.S. CHAMBER LITIGATION
CENTER
1615 H Street, NW
Washington, DC 200622000

